BRECKENRIDGE PLLC
Via Electronic Filing

Tillman J. Breckenridge
202.567.7733
tjb@breckenridgepllc.com

October 15, 2020

Mr. Scott Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Massie v. Mena, No. 20-202
Dear Mr. Harris,

Petitioner Robert Massie filed his Petition for a writ of certiorari on August 18, 2020.
Respondent Basilea Mena waived response, and the Court requested her response on
September 9, 2020. The response currently is due October 21, 2020. Respondent
respectfully requests, under Rule 30.4 of the Rules of this Court, a 30-day extension, to and
including November 20, 2020, within which to file her Brief in Opposition. This is
Respondent’s first request for an extension. I appreciate any assistance, and if you have
any questions or concerns, please do not hesitate to contact me.
Kind regards,

________________________
Tillman J. Breckenridge
cc: Dennis Patrick McLaughlin, Counsel for Petitioner

1325 G Street, NW, Suite 500, Washington, DC 20005

